               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03621-57




  Combined Assessment Program 

            Review of the 

 VA Central Iowa Health Care System
         Des Moines, Iowa 





February 3, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                               CAP Review of the VA Central Iowa Health Care System, Des Moines, IA



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Central Iowa Health Care System
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                        CAP Review of the VA Central Iowa Health Care System, Des Moines, IA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. Acting VISN Director Comments .......................................................................                        20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              24

  F. Report Distribution .............................................................................................            25

  G. Endnotes ...........................................................................................................         26





VA OIG Office of Healthcare Inspections
                               CAP Review of the VA Central Iowa Health Care System, Des Moines, IA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
November 18, 2013.

Review Results: The review covered seven activities.                             We    made     no
recommendations in the following four activities:

 Environment of Care

 Medication Management

 Coordination of Care

 Community Living Center Resident Independence and Dignity

The facility’s reported accomplishments were governance structure redesign and the
“See Something Say Something” reporting campaign and tool.

Recommendations: We made recommendations in the following three activities:
Quality Management: Consistently report Focused Professional Practice Evaluation
results for newly hired licensed independent practitioners to the Medical Executive
Committee. Require the Code Blue Committee to review each code episode.

Nurse Staffing: Continue to complete annual staffing plan reassessments timely.

Pressure Ulcer Prevention and Management: Accurately document location, stage, risk
scale score, and date pressure ulcer acquired for all patients with pressure ulcers.

Comments
The Acting Veterans Integrated Service Network Director and Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 20–23, for
the full text of the Directors’ comments.) We consider recommendation 3 closed. We
will follow up on the planned actions for the open recommendations until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections



VA OIG Office of Healthcare Inspections                                                           i
                               CAP Review of the VA Central Iowa Health Care System, Des Moines, IA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
October 10, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                          1
                               CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the VA Central Iowa Health Care System, Des Moines, Iowa,
Report No. 11-02086-28, November 17, 2011).

During this review, we presented crime awareness briefings for 37 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
224 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Governance Structure Redesign
The facility conducted a system-wide review and redesign of its governance structure.
The new structure enhances efficiency, communication, and flexibility and aligns with
VHA/VISN strategic goals and priorities. The new governance structure is led by the
Executive Leadership Board and focuses on strategic planning, veteran-centered care,
learning organization and workforce development, health care quality and value, and
clinical and administrative excellence.

“See Something Say Something” Reporting Campaign and Tool
“See Something Say Something” is a reporting tool and an approach designed to make
it easy for employees to report just about anything. All facility computers have a direct
link to allow anyone with computer access the ability to report any issue anonymously.
Staff observations and feedback are used to identify opportunities for improvement and
best practices. The site also provides links to external hotline numbers, the patient
event report, and employee incident reports.




VA OIG Office of Healthcare Inspections                                                          2
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                          Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
 X     FPPEs for newly hired licensed independent          Thirty-one profiles reviewed:
       practitioners were initiated, completed, and         None of the results of the 31 completed
       reported to the MEC.                                  FPPEs were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                     3
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


NM               Areas Reviewed (continued)                                    Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          re-assessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events          Twelve months of Code Blue Committee
       met selected requirements:                          meeting minutes reviewed:
        An interdisciplinary committee was                 There was no evidence that the committee
          responsible for reviewing episodes of care         reviewed each episode.
          where resuscitation was attempted:
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                     4
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


 NA             Areas Reviewed (continued)                                      Findings
       The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that FPPE results for newly
hired licensed independent practitioners are consistently reported to the MEC.

2. We recommended that processes be strengthened to ensure that the Code Blue Committee
reviews each code episode.




VA OIG Office of Healthcare Inspections                                                                     5
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected six inpatient care areas (an acute care unit, the intensive care unit, the locked MH
unit, the CLC, the domiciliary, and the behavioral recovery unit), three outpatient areas (the
emergency department, primary care, and specialty care), radiology, the laboratory, and dental.
Additionally, we reviewed relevant documents, conversed with key employees and managers,
and reviewed 17 employee training records (7 radiology employees and 10 acute MH unit
employees). The table below shows the areas reviewed for this topic. Any items that did not
apply to this facility are marked NA. The facility generally met requirements. We made no
recommendations.

NM            Areas Reviewed for General EOC                                   Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                      
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,          
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes              
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.




VA OIG Office of Healthcare Inspections                                                                     6
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


NM      Areas Reviewed for Radiology (continued)                               Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every                 
       6 months.
       Corrective actions were taken for                       
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
       MH unit staff, Multidisciplinary Safety                 
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.




VA OIG Office of Healthcare Inspections                                                                     7
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


NM      Areas Reviewed for Acute MH (continued)                                Findings
       The locked MH unit(s) was/were in                       
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
       The facility complied with any additional                   
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                     8
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed                     with key managers and employees.
Additionally, we reviewed the EHRs of 29 randomly               selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the          areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The          facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                         Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     9
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 11 patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                         Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    10
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 26 training files, and we
conversed with key employees. The table below shows the areas reviewed for this topic. The
area marked as NM did not meet applicable requirements and needed improvement. Any items
that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
 X     The facility either implemented or reassessed        Initial implementation was not completed until
       a nurse staffing methodology within the               April 15, 2013. A reassessment was
       expected timeframes.                                  completed September 30, 2013.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
NA     The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

3. We recommended that processes be strengthened to ensure that nursing managers
continue to complete annual staffing plan reassessments timely.




VA OIG Office of Healthcare Inspections                                                                    11
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 11 EHRs of patients with pressure ulcers (2 patients with
hospital-acquired pressure ulcers and 9 patients with community-acquired pressure ulcers), and
10 employee training records. The table below shows the areas reviewed for this topic. The
area marked as NM did not meet applicable requirements and needed improvement. Any items
that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                         Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                   In 4 of the 11 EHRs, staff did not consistently
       documenting location, stage, risk scale score,        document the location, stage, risk scale
       and date acquired.                                    score, and/or date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.



VA OIG Office of Healthcare Inspections                                                                    12
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


NM             Areas Reviewed (continued)                                      Findings
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
 NA    The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

4. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    13
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 11 EHRs of residents (10 residents receiving restorative nursing services and
1 resident not receiving restorative nursing services but a candidate for services). We also
observed 1 resident during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. Any items that did not apply to this facility are marked NA. The
facility generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                         Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.




VA OIG Office of Healthcare Inspections                                                                    14
                                          CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


NM        Areas Reviewed for Assistive Eating                                   Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    15
                                     CAP Review of the VA Central Iowa Health Care System, Des Moines, IA
                                                                                             Appendix A


           Facility Profile (Des Moines/636A6) FY 2014 through
                               December 2013a
Type of Organization                                                                     Secondary
Complexity Level                                                                         2-Medium complexity
Affiliated/Non-Affiliated                                                                Affiliated
Total Medical Care Budget in Millions                                                    $205.1
Number of:
    Unique Patients                                                                     17,552
    Outpatient Visits                                                                   65,263
    Unique Employeesb                                                                   1,121
Type and Number of Operating Beds (October 2013):
    Hospital                                                                            51
    CLC                                                                                 108
    MH                                                                                  60
Average Daily Census (November 2013):
    Hospital                                                                            51
    CLC                                                                                 48
    MH                                                                                  57
Number of Community Based Outpatient Clinics                                             5
Location(s)/Station Number(s)                                                            Knoxville/636GR
                                                                                         Mason City/636GC
                                                                                         Marshalltown/636GD
                                                                                         Fort Dodge/636GK
                                                                                         Carroll/636GM
VISN Number                                                                              23




a
    All data is for FY 2014 through December 2013 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                   16
                                                               CAP Review of the VA Central Iowa Health Care System, Des Moines, IA
                                                                                                                       Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                         17
                                                     CAP Review of the VA Central Iowa Health Care System, Des Moines, IA



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                               18
                                                                                                CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


                                                                         Metric Definitions
 Measure                       Definition                                                                            Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)     A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                               A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                            A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                  A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                           A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)        A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                         A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                     A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                  A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                        A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                  A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)     A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)              A higher value is better than a lower value
 PSI                           Patient safety indicator                                                              A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                      A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                        A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction               A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                  A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                 A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction             A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                               A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                   A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                        A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                            19
                               CAP Review of the VA Central Iowa Health Care System, Des Moines, IA
                                                                                       Appendix C
                        Acting VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           January 2, 2014 


       From:           Acting Director, VA Midwest Health Care Network (10N23)

       Subject:        CAP Review of the VA Central Iowa Health Care System,
                       Des Moines, IA

       To:             Director, Denver Office of Healthcare Inspections (54DV)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       I concur with the planned actions to be taken by VA Central Iowa Health
       Care System regarding the four identified recommendations.




       Steven C. Julius, M.D.




VA OIG Office of Healthcare Inspections                                                         20
                               CAP Review of the VA Central Iowa Health Care System, Des Moines, IA
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date: 	         December 30, 2013

       From: 	         Director, VA Central Iowa Health Care System (636A6/00)

       Subject: 	      CAP Review of the VA Central Iowa Health Care System,
                       Des Moines, IA

       To: 	           Director, VA Midwest Health Care Network (10N23)

       1. I have reviewed and concur with the findings and recommendations
          in the draft report of the Office of the Inspector General
          Combined Assessment Program Review conducted the week of
          November 18, 2013.

       2. Corrective action plans have been established with target completion
          dates, as detailed in the attached report.


                        (original signed by:)
           JUDITH JOHNSON-MEKOTA, FACHE

           Director 





VA OIG Office of Healthcare Inspections                                                         21
                               CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
FPPE results for newly hired licensed independent practitioners are consistently
reported to the MEC.

Concur

Target date for completion: February 15, 2014

Facility response: The VA Central Iowa Health Care System Credentialing and
Privileging Coordinator will redesign and implement the system to track FPPE for all
new providers. Review of data from the tracking system, specifically the status of initial
FPPE, will be added as a standing agenda item for all meetings of the MEC.

Recommendation 2. We recommended that processes be strengthened to ensure that
the Code Blue Committee reviews each code episode.

Concur

Target date for completion: February 1, 2014

Facility response: The Intensive Care Unit Nurse Manager/designee will track and
initially review each code episode prior to the Code Blue Committee meeting and will
ensure each episode is reviewed and discussed as a standing agenda item at the
meeting. The findings will be documented and tracked by the Code Blue Committee.

Recommendation 3. We recommended that processes be strengthened to ensure that
nursing managers continue to complete annual staffing plan reassessments timely.

Concur

Target date for completion: Completed September 20, 2013

Facility response: The nurse staffing methodology for 2013 was implemented by the
deadline of September 30, 2013. A staffing methodology review process timeline has
been developed and implemented to ensure completion of the annual reassessment.
The process will be tracked by the facility’s nursing program analyst.




VA OIG Office of Healthcare Inspections                                                         22
                               CAP Review of the VA Central Iowa Health Care System, Des Moines, IA


Recommendation 4. We recommended that processes be strengthened to ensure that
acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: April 1, 2014

Facility response: The VA Nursing Outcomes Database Skin Assessment note,
contained in the current nursing admission assessment template in CPRS will be
updated to include location, stage, and date pressure ulcer was acquired.

To ensure that consistent documentation of assessment and care is completed, staff in
acute care settings will be required to conduct a head-to-toe assessment, every shift.
Medical Center policy will be revised to reflect this change. The Nurse Managers and
Skin Champions in acute care will provide and document staff training on proper
documentation of wounds.

Skin Champions will monitor compliance by conducting chart reviews of patients with
pressure ulcers.




VA OIG Office of Healthcare Inspections                                                         23
                               CAP Review of the VA Central Iowa Health Care System, Des Moines, IA
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Ann Ver Linden, RN, MBA, Team Leader
Contributors            Michael Bishop, MSW
                        Clarissa Reynolds, CNHA, MBA
                        Virginia Solana, RN, MA
                        Greg Billingsley, Special Agent in Charge
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Laura Dulcie, BSEE
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         24
                               CAP Review of the VA Central Iowa Health Care System, Des Moines, IA
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Acting Director, VA Midwest Health Care Network (10N23)
Director, VA Central Iowa Health Care System (636A6/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Chuck Grassley, Tom Harkin
U.S. House of Representatives: Bruce L. Braley, Steve King, Tom Latham,
 David Loebsack


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         25
                                      CAP Review of the VA Central Iowa Health Care System, Des Moines, IA
                                                                                              Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                            26
                                      CAP Review of the VA Central Iowa Health Care System, Des Moines, IA



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    27
